                                                                          Memorandum
              U.S. Department of
              Transportation
              Office of the Secretary
              Of Transportation
              Office of Inspector General
Subject:      INFORMATION: Status of Audit Report on the                                   Date:   February 16, 2005
              2004 Central Artery/Tunnel Project Finance Plan

    From:     Kenneth M. Mead                                                           Reply to   JA-40
                                                                                        Attn of:
              Inspector General

    To:       Federal Highway Administrator


              As required by the Department of Transportation and Related Agencies
              Appropriations Act for Fiscal Year 2001, on August 12, 2004, we initiated a
              review of the Massachusetts Turnpike Authority’s (Authority) 2004 Finance
              Plan for the Central Artery/Tunnel Project. The release of the remaining
              $81 million in Federal Highway Administration funds available to the Authority
              is contingent upon our opinion that project costs, schedule, and funding included
              in the Finance Plan are reasonable.

              On December 2, 2004, we reported in testimony before the Joint Committee on
              Transportation of the Commonwealth of Massachusetts1 that the Authority had
              reported 700 water leaks in the I-93 tunnel and as of February 5, 2005, there are
              438 water leaks remaining. In addition, there are approximately 40,000 points in
              the I-93 tunnels that the Authority is in the process of inspecting to determine
              whether there are more leaks than those reported. As a result, it is not yet known
              how many leaks there are, their severity, and the associated costs to repair them.

              Until these unknowns are substantially resolved, we do not have a credible basis
              on which to conclude that the Finance Plan contains a cost estimate that is based
              on all known and reasonably expected costs, identifies appropriate and available
              funding sources sufficient to meet the total estimated costs, or provides a project
              construction schedule that is based on all known and reasonably anticipated
              delays.

            1 OIG Testimony on “Water Leaks Within the I-93 Tunnels of the Central Artery,” before the Joint Committee on
              Transportation, 183rd General Court of the Commonwealth of Massachusetts, December 2, 2004.
                                                                                2



 To determine the project impacts of the tunnel leaks, in January 2005, the
 Authority retained Deloitte & Touche to perform an audit of related costs and
 payments. We reviewed the statement of work for this audit to ensure it would
 generate the information on the tunnel leaks needed to complete our assessment
 of the project’s Finance Plan. The audit is expected to be completed by
 June 2005, and will provide the following information:

      • past and current costs associated with the leaks by contract.
      • contract requirements regarding contractual liability and limits on that
        liability for all relevant parties.
      • payments made for leak-related costs and amounts recovered to date.
      • whether the project’s $14.625 billion budget, including contingencies
        and reserves, is sufficient to cover current leak-related expenses.
      • future maintenance costs that can reasonably be expected as a result of
        the roof leaks.

 We plan on performing a quality assurance review of Deloitte & Touche’s work
 to ensure that it is adequate in scope and conducted in a manner that meets
 applicable auditing standards. Deloitte & Touche’s audit findings also will
 significantly assist the Attorney General of the Commonwealth of
 Massachusetts, who was recently designated to manage the project’s cost
 recovery efforts.

 We intend to meet with Deloitte & Touche on an interim basis during the course
 of their audit work. Since the completion of their work affects the cost estimate
 and Finance Plan, and consequently our certification of the Finance Plan’s
 reasonableness, it is important for Deloitte & Touche to complete its work in a
 timely manner.

 If I can answer any questions or be of assistance, please feel free to contact me
 or Kurt Hyde, Deputy Assistant Inspector General for Surface and Maritime
 Programs, at (202) 366-6238.

                                           #

cc: Assistant Secretary for Budget
    and Programs/Chief Financial Officer
